No. 20-6363
IN THE
SUPREME COURT OF THE UNITED STATES
Andres F. Cabezas,
Petitioner,
v.
United States of America,
Respondent.
On Petition for a Writ of Certiorari
to the Eleventh Circuit Court of Appeals
Appeal No. 18-10258
PROOF OF SERVICE
I, Andres F. Cabezas, do swear and declare that on this date, February 5,
2021, as required by Supreme Court Rule 29 I have served the enclosed PETITION
FOR REHEARING on each party to the above proceeding or that party's counsel by
depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid.
The names and addresses of those served are as follows:
United States Supreme
Washington, D.C. 20543.

Court,

Office

of

the

Clerk,

1

First

Street,

N.E • )

Solicitor General of the United States, Room 5616, Department of Justice, 950
Pennsylvania Ave • 9 N.W • 9 Washington, D.C. 20530-0001.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 5, 2021.
An&r'es F. Cahe^as

RECEIVED
FEB 2 3 2021

isiyisiMLERK
u.s.

